<html>
<title> - RULE OF LAW ASSISTANCE PROGRAMS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                    RULE OF LAW ASSISTANCE PROGRAMS
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2001
                               __________

                           Serial No. 107-66
                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                        U.S. GOVERNMENT PRINTING OFFICE
79-866                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2001.....................................     1
Statement of:
    Ford, Jess T., Associate Director, National Security and 
      International Affairs Division, U.S. General Accounting 
      Office, accompanied by Stephen M. Lord, Assistant Director, 
      International Affairs and Trade; and James B. Michels, 
      Senior Evaluator...........................................     5
    Rosenblum, Daniel, Deputy Coordinator of U.S. Assistance to 
      the Newly Independent States, U.S. Department of State; 
      Viviann Gary, Director, Office of Democracy and Governance, 
      Bureau for Europe and Eurasia, U.S. Agency for 
      International Development; Bruce Swartz, Deputy Assistant 
      Attorney General, Criminal Division, Department of Justice; 
      Peter Prahar, Deputy Director, Office of Asian, African and 
      European/NIS Programs, Bureau for International Narcotics 
      and Law Enforcement Affairs; and Pamela J. Hicks, Acting 
      Deputy Assistant Secretary (Law Enforcement) of the 
      Treasury...................................................    32
Letters, statements, etc., submitted for the record by:
    Ford, Jess T., Associate Director, National Security and 
      International Affairs Division, U.S. General Accounting 
      Office, prepared statement of..............................     8
    Gary, Viviann, Director, Office of Democracy and Governance, 
      Bureau for Europe and Eurasia, U.S. Agency for 
      International Development, prepared statement of...........    40
    Prahar, Peter, Deputy Director, Office of Asian, African and 
      European/NIS Programs, Bureau for International Narcotics 
      and Law Enforcement Affairs, prepared statement of.........    75
    Rosenblum, Daniel, Deputy Coordinator of U.S. Assistance to 
      the Newly Independent States, U.S. Department of State, 
      prepared statement of......................................    34
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Swartz, Bruce, Deputy Assistant Attorney General, Criminal 
      Division, Department of Justice, prepared statement of.....    60










                    RULE OF LAW ASSISTANCE PROGRAMS

                              ----------                              


                         THURSDAY, MAY 17, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Mr. Shays, Mr. Putnam, Mr. Kucinich, Mr. Platts, 
and Mr. Clay.
    Staff present: Lawrence Halloran, staff director/counsel; 
Thomas Costa, professional staff member; Jason Chung, clerk; 
David Rapallo, minority counsel; and Earley Green, minority 
assistant clerk.
    Mr. Shays. The subcommittee will come to order.
    Where law ends, tyranny begins. With these words, British 
statesman William Pitt succinctly mapped the boundary between 
democracy and despotism. From the Ten Commandments to our 
Constitution, free peoples have enshrined their principles and 
aspirations in statutes, preferring the rule of law to the whim 
of tyrants.
    For more than a decade, U.S. foreign assistance programs 
have promoted development of the legislation, institutions, 
procedures, and habits that establish the primacy of law and 
justice over fiat and corruption. Rule of law programs seek to 
assure the power of the state is used to advance, not diminish, 
collective and individual rights through legal education and 
training, an independent judiciary, impartial law enforcement, 
and broad access to the courts. Since the former Soviet Union 
dissolved, the United States has allocated more than $200 
million to the Newly Independent States to fuel the transition 
from political and economic totalitarianism to a fair, just and 
prosperous civil society.
    To determine whether these efforts are capitalizing on 
indigenous democratic urges and achieving lasting reforms, we 
asked the General Accounting Office [GAO] to analyze how 
effectively the Departments of State, Justice, Treasury and the 
U.S. Agency for International Development manage and monitor 
rule of law programs.
    With the past as prologue, the findings GAO reports today 
should be of no surprise. Eight years ago, GAO concluded 
judicial and legal reform assistance was ineffective and 
wasteful unless program managers gauged the receptiveness of 
the host nation, acknowledged entrenched political and 
institutional barriers, evaluated progress toward tangible 
outcomes and coordinated with other agencies.
    Despite the benefit of these lessons learned, current rule 
of law assistance in the former Soviet Union has had little 
lasting impact, according to GAO. Like seeds cast on rocky 
soil, market reforms and legal improvements have not taken 
root. Naive hopes often supplant hard measures of host country 
willingness to embrace change. Local funding to sustain the 
infrastructure of an open, transparent legal system is not 
available. Program managers too often settle for intangible, 
unmeasurable benefits, such as improved law enforcement 
contacts, which could be achieved as effectively though other 
means.
    The failure to set realistic goals and monitor progress has 
resulted in millions wasted in places like Haiti and Ukraine, 
where conditions now appear worse. Money spent is not the 
measure of success for rule of law programs. U.S. aid can fan 
the flames of reform. It cannot generate the spark. In a nation 
ready and willing to embrace change, a small grant can yield 
profound and lasting results. In a nation determined to cling 
to the old ways, no amount will overcome institutional 
corruption and cultural resistance to equality under the law.
    This is not to say rule of law assistance should be 
abandoned. Our reverence as a nation for the rule of law 
demands we not just mean well, but actually do well in helping 
translate nascent democratic aspirations into the words and 
deeds of an open, just society. So potentially potent an 
element of U.S. foreign assistance should be better planned, 
more accurately targeted, more effectively coordinated, more 
rigorously evaluated and better managed. It should not take 
another 8 years for the GAO recommendations in this new report 
to be implemented.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.001
    
    [GRAPHIC] [TIFF OMITTED] T9866.002
    
    Mr. Shays. We appreciate the assistance of the General 
Accounting Office in this oversight, and we welcome the 
testimony of all our witnesses.
    We're pleased to have the first panel today, giving his 
testimony, Jess Ford, Associate Director, National Security and 
International Affairs Division, GAO, who's accompanied by 
Stephen Lord, Assistant Director, International Affairs and 
Trade, GAO, and James Michels, Senior Evaluator, International 
Affairs and Trade, again for the U.S. GAO.
    We'd also like to acknowledge Mr. Platts from Pennsylvania. 
Mr. Platts, do you have an opening statement?
    Mr. Platts. No, thank you, Mr. Chairman.
    Mr. Shays. Very well.
    At this time, I'd ask the panel and all those accompanying 
you who intend to give testimony for the record to stand for 
the swearing in.
    Raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Let the record note that the witnesses responded 
in the affirmative.
    With that, Mr. Ford, you're recognized for your opening 
statement.

    STATEMENT OF JESS T. FORD, ASSOCIATE DIRECTOR, NATIONAL 
   SECURITY AND INTERNATIONAL AFFAIRS DIVISION, U.S. GENERAL 
 ACCOUNTING OFFICE, ACCOMPANIED BY STEPHEN M. LORD, ASSISTANT 
    DIRECTOR, INTERNATIONAL AFFAIRS AND TRADE; AND JAMES B. 
                   MICHELS, SENIOR EVALUATOR

    Mr. Ford. Members of the subcommittee, with your permission 
I'd like to have my full statement added for the record. I'm 
going to try to summarize it.
    I'm pleased to be here today to discuss U.S. rule of law 
programs in the New Independent States of the former Soviet 
Union, which we reviewed at your request. My testimony will 
highlight some of the major points that we made in our report 
which is being released today.
    With me is Mr. Steve Lord, who is our assistant director 
responsible for this project and Mr. Jim Michels, who is a 
senior analyst also heavily involved in this project.
    Since 1991, the Newly Independent States of the former 
Soviet Union have been struggling to overcome a long tradition 
of totalitarian rule marked by an arbitrary system of justice 
and state suppression of human rights. To support these states' 
transition to a more open and democratic style of government, 
the U.S. Government has committed about $216 million in 
assistance in fiscal years 1992 to 2000 to help them develop 
sustainable institutions, traditions and legal foundations for 
establishing a strong rule of law.
    The U.S. Agency for International Development, the 
Department of Justice, the Department of State, and the 
Department of Treasury are the key Federal agencies responsible 
for administering this program.
    My discussion of the U.S. Government's rule of law program 
in the Newly Independent States will focus on two key issues. 
First, our assessment of the extent to which the program has 
had impact on the development of rule of law and whether 
program results were sustainable. Second, identification of 
factors which affect the program's impact and sustainability. 
By sustainability, we mean the extent to which the benefits of 
the program extend beyond the program's life span.
    Our review focused primarily on Russia and Ukraine, which 
received at least half of the total U.S. rule of law assistance 
during that timeframe. The U.S. Government's rule of law 
assistance efforts in the Newly Independent States of the 
former Soviet Union have had limited impact so far and results 
may not be sustainable in many cases. U.S. agencies have helped 
support a variety of legal reforms and have had some success in 
introducing a variety of innovative legal concepts and 
practices related to the operation of the courts, legal 
education, law enforcement and civil society in these 
countries.
    For example, United States helped establish legal eduction 
clinics in Russian and Ukrainian law schools to help provide 
practical training for future lawyers as well as greater access 
to the court, to legal remedies for their problems. However, 
U.S. assistance has not often major long term impact on the 
evolution of rule of law in these countries.
    In some cases, countries have not clearly adopted on a wide 
scale the new concepts and practices that the United States has 
advocated. Moreover, it is not clear whether U.S. supported 
activities are likely to be sustained beyond our current 
involvement. For example, we've found that judicial training 
centers that the United States helped establish in Ukraine to 
train judges and other court officials have either been shut 
down or dismantled or are seriously under-utilized.
    In Russia, jury trials which the United States helped 
introduce have not been expanded beyond the initial pilot 
project in 9 of the 89 regions within the country. In other 
cases, continuation or expansion of innovations depend on 
further funding from the U.S. Government or other donors. For 
example, in Russia and Ukraine, local non-government 
organizations that we visited continued to rely heavily on 
foreign donor support to conduct activities initially sponsored 
by the United States, such as continuing legal education for 
practicing lawyers, as well as legal advocacy and public 
awareness activities.
    Overall, progress in establishing the rule of law has been 
slow in the Newly Independent States and appears to have 
actually deteriorated in recent years in several of these 
countries, including Russia and Ukraine, according to data used 
by U.S. agencies to measure U.S. involvement and assistance 
results. It is clear that establishing the rule of law is a 
complex, long term undertaking and in the Newly Independent 
States, laws and institutions that were designed are generally 
still under the power of the state.
    In our review, we found that the impact and sustainability 
of U.S. rule of law programs has been affected by a number of 
factors, including limited political consensus for reform, 
foreign government budget constraints to institutionalize some 
of the more expensive innovations and weaknesses in how U.S. 
agencies designed and implemented these programs.
    The first two factors have created a very difficult 
environment in which to foster rule of law development. As a 
result, many key legal institutional improvements have yet to 
be made, including the passage of some post-Soviet era criminal 
and civil code procedures.
    Moreover, U.S. agencies have not always designed and 
implemented these eight projects with an emphasis on achieving 
sustainable outcomes and monitoring program impact and 
sustainability. The Departments of State, Justice and Treasury 
have not developed specific strategies for achieving long term 
objectives or desired outcomes of their assistance projects, 
such as reforming national law enforcement practices. Instead, 
efforts have focused on achieving short term outputs, such as 
training a finite number of people.
    Further, none of the agencies, including USAID, have 
effective monitoring and evaluation systems in place to fully 
assess the longer term results and sustainability of their 
efforts. Recently, U.S. agencies have begun to pay attention, 
increased attention, to improving project planning and 
evaluation or are in the process of making changes.
    However, the State Department has committed but not yet 
spent approximately $30 million in law enforcement training 
projects, many of which were designed prior to these new 
reforms. Unless these funds are reprogrammed for other purposes 
or the projects are redesigned, they may have limited impact or 
sustainability.
    In our report, we made three recommendations to the 
Secretary of State, the Attorney General, the Secretary of 
Treasury and the AID Administrator. First, we recommended that 
they require for each rule of law project that their agencies 
implement specific strategies for achieving impact and 
sustainable results. Second, that there be a provision added 
for the monitoring and evaluation of outcomes and indicators 
used to measure those results. Third, we recommended that 
State, Justice and Treasury review the current pipeline of 
training projects to ensure that they are designed to achieve 
sustainable impacts and sustainable results.
    Mr. Chairman, that concludes my opening statement. We would 
be pleased to answer any of your questions.
    [The prepared statement of Mr. Ford follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.003
    
    [GRAPHIC] [TIFF OMITTED] T9866.004
    
    [GRAPHIC] [TIFF OMITTED] T9866.005
    
    [GRAPHIC] [TIFF OMITTED] T9866.006
    
    [GRAPHIC] [TIFF OMITTED] T9866.007
    
    [GRAPHIC] [TIFF OMITTED] T9866.008
    
    [GRAPHIC] [TIFF OMITTED] T9866.009
    
    [GRAPHIC] [TIFF OMITTED] T9866.010
    
    [GRAPHIC] [TIFF OMITTED] T9866.011
    
    [GRAPHIC] [TIFF OMITTED] T9866.012
    
    [GRAPHIC] [TIFF OMITTED] T9866.013
    
    [GRAPHIC] [TIFF OMITTED] T9866.014
    
    [GRAPHIC] [TIFF OMITTED] T9866.015
    
    Mr. Shays. Thank you very much for your opening statement.
    At this time I'd like to ask the ranking member, Mr. 
Kucinich, if he would like to give his opening statement.
    Mr. Kucinich. I thank the gentleman, and I'd be glad to go 
right to questions.
    Mr. Shays. You are recognized for questions. Oh, we have 
one more statement. I'm sorry. Mr. Clay, would you like to make 
an opening statement?
    Mr. Clay. Mr. Chairman, I will forego an opening statement 
and ask some questions of the panel. Thank you.
    Mr. Shays. Very good. Mr. Kucinich, you're recognized for 
questions.
    Mr. Kucinich. Thank you. A question of GAO. I want to ask 
about your basic findings. You concluded that the impact of 
U.S. rule of law programs in the former Soviet states is 
limited. You gave examples of the goals that have not been 
achieved. You also provided examples of some remarkable 
achievements.
    My question is, what standard did you use to arrive at your 
determination that the impact of these programs was limited?
    Mr. Ford. Essentially, we reviewed project documentation 
provided by each of the four key agencies involved in 
implementing the projects. We attempted to use criteria that 
they themselves employed to determine whether or not actual 
impact was being achieved on individual projects.
    We found that in many cases, such criteria didn't really 
exist as far as long term impact. They often talked about 
output type of indicators, such as training people without 
necessarily a follow-on outcome measure to say what the purpose 
of the training or the follow-on, to make sure that this was 
going to be applied on a broader basis.
    So we essentially used the criteria that existed in the 
program documents that all of the agencies used in each of 
these projects.
    Mr. Kucinich. Your prepared statement said that progress 
has been slow, compared to what?
    Mr. Ford. Well, we've been doing this for 8 years. I think 
that using the indicators again that some of the agencies use, 
if you look at the overall impact of rule of law in Russia and 
Ukraine, there hasn't been a significant amount of overall 
change in their government. So again, we used both their 
project level indicators and also broader indicators, such as 
the Freedom House results, which were included in our 
statement, to try to get a sense of whether or not there is any 
real broad based improvement and we just haven't seen it.
    Mr. Kucinich. Do you use indicators that are connected with 
the IMF, for example, or any other international financial 
institutions?
    Mr. Ford. For this particular project, we have not used 
those types of indicators. Now, we did issue a report on Russia 
in November of last year which did include assessments of IMF, 
World Bank and also broader foreign assistance programs, which 
included economic reforms, privatization. It was a different 
type of audit, but we did use those type of criteria in that 
effort.
    Mr. Kucinich. OK. I thank the gentleman and yield back.
    Mr. Shays. The gentleman yields back his time. Mr. Clay, 
you're recognized.
    Before we move forward, let me read into the--I ask 
unanimous consent that all members of the subcommittee be 
permitted to place any opening statement in the record, and 
that the record remain open for 3 days for that purpose. 
Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. Is 
there objection? Without objection, so ordered.
    Mr. Ford, the focus of this report was on the former Soviet 
states. How does the progress or the lack thereof in the former 
Soviet states compare to other regions of the world where 
similar programs have been attempted?
    Mr. Ford. That's a little tough question to answer on a 
global basis. We have done some work on rule of law similar to 
this project in the last couple of years. We issued a report 
about 2 years ago on five Latin American countries, and we 
issued a report last year on Haiti. I can say that when you 
take probably the case that was the more difficult one in terms 
of showing impact, it was the work we did in Haiti. The key 
point there in that work was that the political commitment on 
the part of the government wasn't there. And as a result, a lot 
of the effort that we had put into Haiti didn't bear much 
fruit.
    With regard to the other report that we issued in 1998, we 
found much more mixed results. The common thread that I think 
we see in all of these types of projects is there needs to be 
fairly strong political will on the part of your partner that 
you're working with, be that the local government itself or the 
NGO community, for these things to be successful. I think that 
our work overall would tend to show that we had more success 
when there's a stronger political will and commitment on the 
part of our partners, and then when you don't see that type of 
thing occurring, the impact tends to be significantly less.
    Mr. Shays. Let me rephrase my questions. Have rule of law 
programs worked anywhere in the world?
    Mr. Ford. Have they been successful?
    Mr. Shays. Have they been successful.
    Mr. Ford. I think it's fair to say that in some countries 
we've had some fairly significant success in getting various 
aspects of rule of law implemented. I think that again, the 
work we did in Latin America, there are examples, El Salvador 
is one that comes to mind where we've had a number of 
successful programs there to implement aspects of independent 
judiciary, legal reforms.
    Now, to say whether or not these governments are fully 
Jeffersonian democracies, I can't get that far. But I think 
there are places where we've had success.
    Mr. Shays. I'm not sure that we're a Jeffersonian democracy 
any more. [Laughter.]
    You mentioned that one of the key indicators is the 
political will there in the indigenous country. How do you 
evaluate, how do you determine whether or not the political 
will is there?
    Mr. Ford. Well, I think as we say in this particular 
report, one sign would be whether or not some of the efforts 
that we have undertaken are being sustained, or are going to be 
picked up by our partner. So for example, when we make an 
investment in developing, say, a legal center, where we're 
going to train indigenous folks to be lawyers, I think at some 
point there should be a commitment on the part of our partner 
to help sustain that effort. That means they have to put 
resources into the project, they have to make equipment 
available. And when we looked at some of the projects, in this 
particular case, we didn't see that happening.
    So I think that's a sign, perhaps, of lack of political 
will on the part of our partner to carry through with some of 
the reforms that we'd like to see.
    Mr. Shays. Is there an objective way to evaluate whether or 
not the political will is there before we are into it, before 
we've committed resources and time and personnel?
    Mr. Ford. I think there are some steps that can be taken. I 
think adding some conditions to the assistance that we provide, 
where we expect to see a quid pro quo for the assistance that 
we provide can be added to some of the agreements that we sign 
up for. So I think yes, there are some things we can do. Let's 
try to get a commitment up front that whatever efforts we 
undertake, there will be some further follow-on activity on the 
part of our partner.
    Mr. Shays. Which NGO's have been most helpful in assisting 
the various departments of U.S. Government in developing these 
as well?
    Mr. Michels. We visited a wide variety of NGO's, some of 
which were more active than others. There was an NGO in Ukraine 
that was working on women's rights issues, one of the few NGO's 
that we saw that actually raised money locally from businesses 
and citizens. We found pockets of NGO activity that were very 
aggressive. Most of the rest of them depended on foreign 
support, U.S. support or other countries over the longer term. 
But many of them, especially while they were getting the 
funding, were very active.
    The ones that come to mind, in Ukraine also, environmental 
NGO's. We've been supporting them for several years. It's time 
for them to become more independent now. But they've been very 
effective. There are some labor rights NGO's in Russia that we 
found that actually were pushing litigation through the system 
and getting legal rights for workers. Again, dependent on a lot 
of support from labor unions and organizations outside of 
Russia. But very committed.
    Mr. Shays. How much private support is there from within 
the United States for these programs? Is the bar association a 
leader in this effort? Are there other attorneys' organizations 
or professional associations that are leaders in this effort, 
or is the Government out there by themselves?
    Mr. Michels. There are certainly pockets. We noticed for 
example in Russia, in Korellia, there were partnerships between 
lawyers and judges in Vermont and in the region of Korellia. 
It's hard to canvass and figure out exactly where all those 
exist. But we certainly did find pockets. We found that the 
Soils Foundation, which particularly is very active, was 
supporting many of the same types of programs that we were 
doing, especially in the legal clinic area. It was almost a 
little bit of competition among donors to find things that will 
work and that will fund them.
    Mr. Shays. Mr. Ford, what are the results of the agencies' 
focusing on short term outputs, and how should they retool 
their programs to establish some form of long term objective?
    Mr. Ford. I think what we'd like to see, and by the way, 
since we've completed our work, we understand that a number of 
the agencies are in fact moving in the direction we'd like to 
see. What we want is for them to design projects and efforts 
that have much more clear and long term outcome orientation 
than just saying that they train 20 people in a particular 
course or something of that nature. We want to see more of a 
linkage between a broader outcome when we're going to make an 
investment in most of these programs. What we saw in the work 
in the past was that often didn't occur, wasn't readily 
available in the documentation that we reviewed. Particularly 
this was true in the law enforcement area.
    So we would like to see the key agencies that are involved 
in these type activities in effect have a better game plan that 
articulates a longer term goal.
    Mr. Shays. What are the major barriers to success in these 
programs? Are the cultural barriers? Is it a resentment that 
the U.S. Government is there to tell them how to do things? 
What is the biggest obstacle to success in this regard?
    Mr. Ford. I think the biggest obstacle is really whether 
they really want to make major changes in the way they do 
business. If you read, particularly for Russia and Ukraine, the 
literature with regard to real reform of the judiciary, a real 
attempt to overcome some of the problems they have, like 
pretrial detention, there hasn't been much progress in that 
area. I think, to me anyway, that's a sign that maybe they're 
not as committed to making fundamental changes that they need 
to make.
    So I think that's a key factor. I think the economy of 
these countries obviously is a factor because they need 
resources in order to be able to replicate many of the 
suggestions that we're making, and we've seen cases where we 
have good suggestions, like on jury trials, they're not 
stepping to the plate and expanding the program. They're 
arguing they don't have the resources to do it. I think that's 
another key factor that has to be weighed in here.
    So I think those are two major external factors, 
environmental factors, and they exist in just about any country 
where we run these kind of programs. I think on the program 
side, we felt that we needed a better integrated effort and we 
needed to have better indicators up front when we design these 
kinds of projects, and we believe that the executive branch is 
now starting to move in that direction.
    Mr. Shays. So is it your opinion that the obstacles are 
benign in the sense that it is a cultural reluctance or 
hesitancy or that it is a darker, more conspiratorial reason 
that through corruption, that the powers that be actually 
benefit from the system as it is without the rule of law?
    Mr. Ford. Well, certainly, I think your latter comment, 
there's a lot of commentary that would suggest that exists. I 
think that we have to look for targets of opportunity, places 
where there is an opportunity to make some changes that the 
governments and the local communities there will actually take 
action. For us to expect a place like Russia, that's been 
governed by totalitarian rule of one sort or another for 
hundreds of years to suddenly change the way they operate is, 
to expect that change overnight is just not realistic. This is 
going to be a long term effort. And if we want to see change, 
we have to recognize it's going to take a long time before 
fundamental changes really occur.
    Mr. Shays. Has it been your observation that economic 
efforts, the opening of trade agreements, the exchange of 
cultural programs, have contributed to the historical 
reluctance to move toward rule of law programs? How much of an 
impact does free trade and access to the internet and access to 
television and access to information contribute to the success 
of these programs at a cultural level?
    Mr. Ford. Well, we didn't really cover that in this 
particular assignment. I can just give you my opinion.
    I think that any time you have open access, be that through 
the internet, media or other mechanisms such as that, the 
chances of having a more open society and effecting some kind 
of change, you have a better chance than having a closed 
society where you don't have access to any kind of outside 
influence. But that doesn't mean that even with those types of 
mechanisms in place that you're going to see major changes 
overnight in a lot of these countries.
    Mr. Shays. Mr. Clay, you're recognized.
    Mr. Clay. Mr. Ford, your report said that you conducted 
various interviews, studied numerous documents and visited 
former Soviet states on several occasions, is that right?
    Mr. Ford. Yes, we sent teams into Russia and Ukraine to 
visit several locations in both countries.
    Mr. Clay. Did you conduct any surveys that would have given 
you a more statistical sample of the programs and their 
effects, or did you plan to do one and change your mind?
    Mr. Ford. I think we attempted to address all of the major 
programs that each of the four key implementing agencies had 
identified to us as being their key rule of law programs for 
both of those countries. We didn't visit all of the projects. 
We just logistically couldn't get to all of them.
    Mr. Clay. Mr. Ford, the State Department says their 
followup research shows that exchange programs have a major 
impact on the participants which over the long term have a 
significant impact. Did you meet with alumni of U.S. Government 
exchange programs?
    Mr. Michels. I just want to say a couple of things about 
surveys, and this question as well. Initially we thought about 
doing a survey of some of the participant training of 
exchanges. After consulting with our colleagues, State, 
Justice, and USAID, we were discouraged from doing that because 
for cultural reasons, it's very difficult to get responses from 
people by telephone or by mail. So we didn't pursue that.
    We did meet with a lot of people who participated in a lot 
of different kinds of exchanges. By and large, for the most 
part, they really enjoyed the exchanges. We found relatively 
little about what actually came about as a result of the 
exchange. One exception was a dean of a law school in St. 
Petersburg who clearly credits the exposure to U.S. law schools 
to the transformation of that particular law school. It's a 
very prestigious law school, to make a special case.
    He told us that although that exchange helped him, he 
really didn't see those kinds of transformations going on with 
his colleagues at other law schools. So we were able to get 
kind of a cross section of views from people that did 
exchanges. But we weren't really able to address it 
systematically.
    Mr. Clay. What would be the best way for the U.S. agencies 
to implement the kinds of measures you described in your 
report, and how could the agencies most improve the delivery of 
their assistance?
    Mr. Ford. Well, again, I think that the recommendations we 
have in our report are designed for the agencies that are a 
little clearer focused on what the expected outcome is for the 
activity that they're going to undertake. We think, 
particularly in the case of AID, they have a lot of experience 
in implementing assistance programs where they have better 
indicators of success. This particular program, up until 
recently, those kinds of indicators didn't exist. It was 
particularly a problem in the law enforcement area, where most 
of the information we saw had to do with just numbers of people 
that had been trained.
    Mr. Lord. And also within each country, I think it's 
important for the embassy to approve all the training that's 
being offered by all the subordinate agencies. In the past, I 
think we found some examples where people would fly in, fly 
out, get some training, the post itself was unaware of what the 
objectives of the courses were. So to their credit, I think the 
agencies recognized that and they have formed working groups at 
the embassy level to ensure all the training that's being 
offered is consistent with the overall goals of the programs.
    So I think they're doing a much better job of making sure 
whatever they're offering is coherent and part of an overall 
game plan.
    Mr. Clay. Mr. Ford, you said that you didn't see 
substantial improvement. But you say in your report that the 
United States has helped several of these countries adopt new 
constitutions and pass legislation establishing independent 
judiciaries and post-communist civil and criminal codes and 
procedures, as well as other legislation that supports 
democratic and market oriented reform.
    Doesn't that sound pretty impressive? Wouldn't you agree?
    Mr. Ford. Yes, I agree wholeheartedly. Again, we didn't say 
we didn't see any successes. In fact, we went out of our way to 
try to identify any cases where we felt there was some positive 
impacts from the assistance that we provided. And certainly in 
the case of legal reforms, we acknowledge in the report several 
cases where our assistance did in fact help passage of laws.
    I think the key issue here now is implementation. Because 
what we've also found that while there's a lot of these laws on 
the books, many of them aren't being fully implemented, so that 
the real benefits from these laws haven't yet accrued to the 
populations.
    Mr. Clay. I see. Thank you, and thank you, Mr. Chairman.
    Mr. Shays. Mr. Clay, you're more than welcome.
    I'm struck by the fact that--the gentleman from 
Pennsylvania, you have the floor.
    Mr. Platts. Thank you, Mr. Chairman. Just one question.
    I certainly appreciate the panelists' comments and 
testimony they've shared. Certainly maybe there's a perception 
of a love-hate relationship between office holders and the 
media. But as one who believes that the free press, the media 
plays a very important role in the openness and effectiveness 
of our government and the rule of law here, could you give me 
an assessment of how the lesser level of freedom of the press 
in these developing countries or these countries in question 
has impacted the programs and the ability for us to be 
effective?
    And I think of the television station takeover not too long 
ago, and certainly if the public is not aware if the law is not 
being followed or not being implemented, it's harder for the 
society to embrace change as opposed to just in name but not in 
reality. So if you could address that, I'd appreciate it.
    Mr. Ford. I'm going to let Jim handle this. But we didn't 
cover media in the scope of our work. I think the environment 
there, we can comment a little bit about that, because I think 
you have a valid point.
    Mr. Michels. Yes, as Mr. Ford said, the media programs are 
only really, in this case, were only a very small part of the 
program, because there are other media efforts, assistance 
efforts, outside of what we looked at. But in terms of it being 
directly related to judicial reform, there was a big media 
focus.
    Having said that, we did see areas where open media was 
really important for development of the rule of law, especially 
on a local level, because corruption of judges in particular, 
and the police, is one of the biggest obstacles to developing 
rule of law. Judges don't get paid much, they're kind of low on 
the social ladder. And corruption, bribe taking, is one of the 
few ways that they can make enough money to support their 
families.
    And exposure of corruption through the media is one way on 
a local level, particularly, that they've been able to uncover 
some of this corruption, especially on a police level. Just on 
the streets, the shakedowns and things like that, getting this 
thing on the television. We saw it.
    And some of these civil society projects, had a component, 
a little tiny component, but I think disproportionately 
effective, in terms of exposing corruption and letting people 
know what's going on, what the courts are all about, what the 
police procedures are all about, telling people about what 
their rights are. These things were really important for local 
citizens. They can get involved if they know about it.
    So opening up of what the court system is, what the legal 
system is, to the media has been an effective component of this 
program. Very small, though.
    Mr. Platts. For the programs you analyzed and assessed, did 
you see because of that small investment a big return in public 
exposure there being consideration of trying to broaden the 
direct involvement, and that the media and the public exposure 
does very much relate to all these programs? And that long term 
sustainability to me goes to the public being more aware of 
their rights, more aware of corruption and demanding change. 
That goes to the long term.
    Did you see that within the agencies?
    Mr. Michels. I may be wrong, and perhaps the agencies can 
tell you a little bit better, I didn't see that as major thrust 
of their coming up efforts. We saw more continuation. Eurasian 
Foundation supports a bunch of local NGO's. One of those NGO's 
involves a lot of media. I think there was some consideration 
of continuing that in Russia, in particular, but I don't think 
it was the main thrust.
    Mr. Platts. So the reference to some other media were not 
U.S. funded, part of our Government funded programs, but 
private or other organizations?
    Mr. Michels. As far as I know. And also, there may be 
other, I'm sure there are, other media projects that USAID and 
others sponsored that we didn't look at and I'm not aware of. 
But in terms of the rule of law program, that's the main thrust 
of that, but it certainly is, I'm sure, part of their 
portfolio. They can tell you more about it.
    Mr. Platts. Mr. Chairman, thank you, and I'm running off to 
another meeting as well. Maybe the subsequent panel, I may not 
be here, but if they can be asked to address the media aspects 
of their agencies and trying to coordinate, if they can plan on 
addressing that as part of the record.
    Mr. Shays. I will ask the question specifically as it 
relates to your request, and thank you very much for being 
here, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman, and thanks for your 
testimony.
    Mr. Shays. Sorry I missed your statements. There have been 
some developments in campaign finance reform that I have been 
very eager to see moved forward, so we needed to address that. 
You were in very good hands, by the way, with the vice 
chairman. In fact, I had a few people tell me that they prefer 
it when I'm not there, because he does a better job. Those 
staff members are no longer working for me. [Laughter.]
    Mr. Ford, in your work, did you come across any programs 
that were canceled, restructured or scaled back because they 
were not meeting strategic objectives?
    Mr. Ford. There were some programs that we identified, I 
mentioned earlier the judicial centers in Ukraine, which we had 
started up with our assistance. And when we went to visit them, 
one of them had been closed down, and the other one was 
operating at very limited capacity.
    Now, we were told that the reason that happened was that 
resources weren't available, basically, to continue those 
efforts.
    Mr. Michels. I think one of the key examples would be legal 
education in Ukraine. I think it's an area where AID really 
identified that they weren't making any progress in this area, 
or a lot of progress, and had scaled back. Much to the chagrin 
of their major grantees, partners, ABA. But there wasn't a lot 
of express activity on the part of the legal education 
community to reform. So the assistance was kind of shortened, 
turned back in that area.
    Mr. Shays. Thank you. I'm going to not say the name the way 
I'd like to, but Uri Gongazi, the journalist in Ukraine, the 
crusading journalist, what am I to feel when I read in the 
newspaper today that the crime, I think he was beheaded?
    Mr. Ford. Yes.
    Mr. Shays. That his murder was solved, that there were two 
hooligans that did it, and they're dead.
    Mr. Lord. I think that highlights some of the problems you 
encounter in trying to develop a rule of law in these 
countries. I think the issue in Ukraine is the power is highly 
concentrated within the executive branch, and there isn't a 
system of checks and balances like we have in our country. So 
these types of things occur and it's difficult to address them 
effectively to the courts.
    Mr. Shays. When we fund various programs and we have 
individuals who we hire to do that, my perception is that they 
take some risk to their own life by participating in these 
programs. Is that a fair assessment, that, I'll say it this 
way, it's not without risk, significant risk?
    Mr. Michels. I don't think that we saw any particular 
examples of it. But there certainly is risk. This type of 
reform, you're dealing with really entrenched interests. You're 
dealing, any time you're dealing with just about any major 
entity where a lot of money is involved, you've got mafia 
concerns, you've got concerns with the police, police 
corruption and difficulties with police detention.
    So although I don't think many people expressed it to us, 
you could feel it, tangibly. Yes, it's a corrupt environment.
    Mr. Lord. For example, we met with a couple of NGO's 
interested in investigative journalism. We met behind steel 
doors about 6 inches thick. So it was palpable, some of the 
security concerns they had.
    Mr. Shays. I usually ask this question having been at the 
entire hearing, but is there a question that my colleagues or I 
should have asked you that you wished were asked? Is there 
anything you prepared for that you think we should have made 
sure we requested?
    Mr. Lord. That you could have asked of us or the executive 
branch witnesses? [Laughter.]
    Mr. Shays. Both. Was there any question, though, that you 
would like to answer that we haven't asked you? I don't want 
you to go home to your spouses tonight and say, you know, I 
stayed up all night cramming for this, and they didn't even ask 
me those questions.
    Mr. Lord. I would ask a question more along the strategic 
line, how these programs should be either re-thought, reshaped, 
given all the problems we've had.
    Mr. Shays. Given all the problems we've had, how should all 
these programs be reshaped or changed?
    Mr. Lord. In the past, how to reorient them.
    Mr. Shays. How would we reorient them? I've asked the 
question.
    Mr. Ford. Let me jump in here. I think we ought to look for 
opportunities to get a firmer commitment on the part of our 
partners in these endeavors to try to get an opportunity to 
make sure that when we start a useful program, there will be a 
likelihood that it will be carried out and sustained by our 
partner. I think that's one thing we should incorporate more 
than perhaps we have in the past.
    And I think that we ought to be willing to walk away in 
those cases where we've started something that we're not 
getting that type of a commitment from our partner. My view is 
that if that's the case, we should walk away from those kinds 
of projects and try to move to another area where we have a 
better likelihood that we're going to get some meaningful 
result.
    Mr. Shays. So you talked about walking away when we don't 
get the results we want. But the question Mr. Lord asked was a 
little more than that. And now it's my question.
    Mr. Lord, why don't you respond to that? Would you make any 
other response? Mr. Michels. Or Mr. Ford as well. Are there 
ways that we should be redesigning the programs, specifically 
that you'd like to see redesigned?
    Mr. Ford. Well, yes, the people that implement these 
programs have to assess the environment they're working under. 
We understand that working in the environment in the former 
Soviet Union is a very difficult environment because of some of 
the things we just talked about. But I also think that having 
reviewed a number of rule of law activities over the years, 
that we should be in a position where we can, through lessons 
learned, come up with the approaches that we think have a 
better likelihood of success in making sure that when we plan 
those kinds of activities we have sort of an integrated game 
plan where all of the agencies involved work together toward a 
common goal, so that the folks that are implementing law 
enforcement programs, the folks that are involved in democracy 
building, the media support, they all work together toward a 
common goal. I think that in the past we've seen the cases 
where that didn't always occur.
    Mr. Shays. Any other questions or comment you'd like to 
make before we go off to vote? Mr. Lord, would you like to make 
a final comment. I'd welcome a final comment from all of you.
    Mr. Ford. Well, let me make a final comment based on, and 
the executive branch is going to get their day in court, but--
--
    Mr. Shays. Let me do this. Let me have Mr. Michels and Mr. 
Lord make final comments, and then you can make sure you 
qualify any response you get. Mr. Michels.
    Mr. Michels. Yes, I spent several months deeply mired in a 
lot of programs in a lot of countries. Sometimes it's hard to 
sort out all of the different things that have happened. But I 
would say that, there are a lot of innovative, very creative 
energies that were tapped into in these programs. You're up 
against really entrenched interests in these countries, the 
prosecutors in these countries, the corruption and things.
    There are certainly sparkling finds on a local level of 
people that want to change. It's a very difficult environment. 
Saying that they've had limited impact, as we did, I don't want 
that to put a cloud over the whole program, because there's a 
lot of really good things that have happened. I think it's the 
environment that they work in, and a kind of unwillingness or 
lack of willingness to really be, a hard assessment of the 
program at the end of the day, and looking to the future when 
you're finished 2 years from now, are the accomplishments still 
going to be there, are they going to grow?
    Sometimes they get so mired into working on what's going on 
right now that they don't always look at what's really been 
accomplished.
    Mr. Shays. And I guess you come back with a tremendous 
appreciation that the legislative process works if you have a 
fair judicial system and a legal system that works as well, a 
police system that works as well.
    Mr. Lord.
    Mr. Lord. Just briefly, I would ask the agencies to focus 
on the long term and on projects that work, where you do 
achieve meaningful results. In the past, it's been more of a 
shotgun approach. Also with the law enforcement people in 
particular, I think they need to adopt more of that 
orientation. They continually stress the importance of 
promoting the so-called cop to cop relationship, which we 
acknowledge is important. But it's not really, we view that 
more as a subordinate objective.
    Mr. Shays. Thank you. And your final, Mr. Ford.
    Mr. Ford. I'm not going to add anything. I agree with the 
comments my colleagues just made, and I think we shouldn't 
necessarily give up these type of programs. I think there's 
value in them, we just have to do a good job of making sure we 
do it right.
    Mr. Shays. I'm always grateful for GAO's participation. You 
are a wonderful resource for Government and particularly the 
legislature. Also the agencies that I think make changes as a 
result of your work. I think you all have an interesting job, 
frankly. I think this must have been a fascinating effort to 
have worked on.
    So we thank you for being here. We're going to get to our 
next panel after this vote. Thank you, gentlemen.
    [Recess.]
    Mr. Shays. I will call this hearing to order. I appreciate 
the patience of our second panel.
    We have Daniel Rosenblum, Deputy Coordinator for U.S. 
Assistance to the Newly Independent States, Department of 
State; Viviann Gary, Director, Office of Democracy and 
Governance, Europe and Eurasia Bureau, U.S. Agency for 
International Development; Bruce Swartz, Deputy Assistant 
Attorney General, Criminal Division, Department of Justice; 
Peter Prahar, Deputy Director of the Office of Asian, African 
and European NIS Programs, Bureau of International Narcotics 
and Law Enforcement, Department of State; and Pamela Hicks, 
Acting Deputy Assistant Secretary for Law Enforcement, 
Department of the Treasury.
    I welcome all our panelists. I will ask them to stand, so I 
may swear them in. Raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. I note for the record that our witnesses have 
responded in the affirmative.
    We have a 5-minute rule, but frankly, we go over it, 
particularly since you've waited. If we could clearly be under 
10, that would be nice. But I want you to make your statement, 
make sure it's part of the record. We will go down the list as 
I read it and in the order that you're seated.
    So Mr. Rosenblum, you're first. Thank you for being here, 
all of you.

  STATEMENTS OF DANIEL ROSENBLUM, DEPUTY COORDINATOR OF U.S. 
ASSISTANCE TO THE NEWLY INDEPENDENT STATES, U.S. DEPARTMENT OF 
    STATE; VIVIANN GARY, DIRECTOR, OFFICE OF DEMOCRACY AND 
  GOVERNANCE, BUREAU FOR EUROPE AND EURASIA, U.S. AGENCY FOR 
   INTERNATIONAL DEVELOPMENT; BRUCE SWARTZ, DEPUTY ASSISTANT 
  ATTORNEY GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE; 
  PETER PRAHAR, DEPUTY DIRECTOR, OFFICE OF ASIAN, AFRICAN AND 
 EUROPEAN/NIS PROGRAMS, BUREAU FOR INTERNATIONAL NARCOTICS AND 
  LAW ENFORCEMENT AFFAIRS; AND PAMELA J. HICKS, ACTING DEPUTY 
     ASSISTANT SECRETARY (LAW ENFORCEMENT) OF THE TREASURY

    Mr. Rosenblum. Thank you very much, Mr. Chairman.
    I'm glad to be here today representing Ambassador Bill 
Taylor, who is the coordinator of U.S. Assistance to the NIS. 
He's traveling overseas today and couldn't be here.
    We're grateful for the opportunity to talk to the 
subcommittee about this GAO study of rule of law programs in 
the NIS. As you noted, I've submitted a written statement for 
the record, but I'd just like to briefly highlight a few of the 
major points in that statement.
    My colleagues on the panel here represent the agencies that 
plan and implement the actual rule of law related programs. 
They'll be able to address your substantive questions about the 
objectives of those programs, some of their successes, some 
failures. But to help set the stage for them, I'll emphasize a 
few general points about U.S. Government work in this area.
    First, we believe that U.S. foreign assistance programs are 
a tool of our foreign policy, so they should always support an 
identifiable U.S. national interest. We have to be able to draw 
a clear line between any particular program and a specific U.S. 
interest.
    Now, do the rule of law programs in the NIS pass that test? 
We think that they do and that they serve both short and long 
term U.S. interests. My colleagues can give you some specific 
examples of this. There's a clear short term benefit when these 
programs promote better law enforcement cooperation which helps 
us fight against transnational crime, against drug trafficking 
and so on.
    There's also a long term benefit in helping these countries 
establish more transparent rules based legal systems. Countries 
that have firmly established rule of law are more likely to 
observe basic human rights. They are more sympathetic to U.S. 
foreign policy priorities. They are better trading partners and 
better places for U.S. investors to make money.
    Second, as I think my colleagues' testimony will make 
clear, our strategy for rule of law programs in the NIS has 
evolved over the past 7 years. The GAO report acknowledges 
this, and I want to emphasize it. Probably we were overly 
optimistic in earlier years about the degree of commitment that 
the governments of the region had to establishing rule of law. 
Now we're willing to wait until we see clear evidence of 
political will before we offer technical assistance directly to 
the governments. We can talk about some specific examples of 
this during the question period.
    Also over time, we've given more weight to what we call 
bottom up reform. By that I mean demand for rule of law from 
the citizens of these countries. This means, concretely, that 
we're doing more work with non-governmental organizations, 
helping establish legal clinics, something that was referred to 
in the GAO panel, promoting community policing and generally 
focusing more in the provinces and less in capital cities, like 
Moscow.
    We can't neglect the top down reform altogether, because 
those centrally run institutions ultimately have to change, 
too. But when we're stymied at the top, there are still 
significant efforts we can make at the grass roots.
    As we mentioned in the written comments that the State 
Department submitted on the GAO report, this is one area we 
think was given less than full treatment in the report. We 
understand that they couldn't look at every aspect of our 
programs, because of time and manpower constraints, but we do 
wish that they had been able to take a more thorough look at 
some of our exchange programs and some of the grant programs to 
NGO's that are working on this bottom up reform.
    Finally, Mr. Chairman, a word about coordination. 
Coordinating the efforts of 20 or so U.S. Government agencies 
who are involved in our overall assistance program, now I'm 
speaking beyond just rule of law, is a continual challenge. 
With regard to rule of law, the challenge is especially great. 
That's because achieving rule of law in these post-communist 
societies is a very complex matter. It touches on practically 
every part of society and it involves not only getting the 
right laws and the right institutions in place, but it involves 
also changing attitudes and behaviors that have taken shape 
over decades, even centuries.
    Because rule of law is a complex issue and requires a 
comprehensive approach, what we've done is to mobilize a wide 
variety of agencies to implement the programs, trying to take 
advantage of the diverse talents that we have within the U.S. 
Government. But an inevitable side effect of having so many 
agencies involved is that there are going to be questions, for 
example, of jurisdiction, who should be responsible for one 
area or another, and there may be differences of philosophy and 
approach among agencies.
    But even though it's a challenge, we're continually working 
at it and trying to improve it and we think we're doing better 
as time goes by. I can address this issue in more detail if the 
subcommittee is interested during the question period.
    Now I'll turn the floor to my colleagues, and I look 
forward to responding to any questions you may have.
    [The prepared statement of Mr. Rosenblum follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.016
    
    [GRAPHIC] [TIFF OMITTED] T9866.017
    
    [GRAPHIC] [TIFF OMITTED] T9866.018
    
    Mr. Shays. Thank you very much.
    Ms. Gary.
    Ms. Gary. Thank you, Mr. Chairman and members of the 
committee. Thank you for inviting USAID to testify today on the 
impact of the law assistance activities in the former Soviet 
Union. We're pleased the committee has taken interest in this 
area, because it's a key component of our efforts to achieve 
democracy, good governance and a functional market economy in 
these countries.
    I too would like to respectfully ask that my written 
testimony be put on the record and I will just try to summarize 
some of the key points.
    Before going on, I'd like to say that we clearly do not 
entertain any delusions about our ability to make fundamental 
change in these countries. The challenges are really 
formidable. We also don't want to all suggest that rule of law 
programs produce sweeping changes. They clearly haven't. But 
that said, we do believe that a lot has been accomplished and 
that there has been significant progress, especially given the 
limitations that were mentioned by my colleague as well.
    Some of those limitations include the level of resources, 
not that we're criticizing the allocation of funds, but 
relative to the task at hand, AID has spent approximately $90 
million over 9 years for 12 countries. Given the type of change 
you're looking for, that really is not much. Again, the 
magnitude of the change, you're basically talking about 
countries that didn't have frameworks for modern legal systems, 
their judiciaries were totally subjugated to the executive 
branch, they basically had to transform every public sector 
institution and so forth.
    There's also a limited time. Unlike Latin America, we have 
only been working in this region for less than a decade. 
Actually our rule of law program started after the programs for 
economic reform. They started probably in about 1992, 1993.
    So that said, we did, when we started in this region, we 
did adopt many of the lessons learned that we had learned from 
places like Latin America. That included the need to 
concentrate efforts on building constituencies for reform 
outside of the government as well as inside the government. And 
have done a lot of thought in terms of targeting who are the 
key reformers in these countries, who can we work with and who 
will make a difference.
    Two is that we paid more attention to implementation of law 
rather than just drafting of laws. While there was a lot of 
drafting originally because there were no constitutions and so 
forth, there's been a really heavy emphasis for building 
capacity of courts and agencies to implement.
    Also one of the lessons that was learned is that you don't 
rush in full scale, that you do deal with pilot activities and 
see how they work. You're not trying to impose your systems on 
them en masse.
    Finally, very important is that law revision and so forth 
has got to be as fully participatory as much as possible. That 
is, if you're going to get people who really want to play the 
game they've got to be part of making the rules of those games.
    One of the significant differences from the programming in 
Latin America, however, in Latin America it was found that 
working with the judiciary was often not particularly useful, 
because they had calcified them, in a way. While in the former 
Soviet Union, we found exactly the opposite. The judiciary in 
some ways was such a stepchild of the system that there was a 
real desire for reform from the members of the judiciary and 
people who supported judicial reform, so that many of our 
programs have now been targeted to the judiciary.
    We have in this area then contributed to some real change, 
and we think lasting change. There's been change in attitudes 
of judges and other in places like Uzbekistan for strong and 
independent judiciary. They realize that they need to curb the 
power of the plutocracy.
    In Armenia, you've gotten a legislative foundation for 
modern legal systems. In Georgia, you've empowered the 
judiciary to actually take control of their own reform process. 
In Russia, you've actually started establishing a sound 
framework for laws.
    I wanted to just quote from one of the people who have been 
working from the Vermont Bar Association that USAID has 
supported and working for 10 years in Russia. His assessment is 
that the court system in Russia now is better funded, judges 
are better paid and better trained, and the judiciary is in 
control of its own destiny and has leaders with a vision of the 
future that is in part based on U.S. models. We think that does 
have significance.
    With that said, we also at AID have a very extensive 
monitoring and evaluation process. We start off with country 
development strategies which are reviewed by all agencies or 
open to all agencies for review, where we set long term 
targets. We then have a whole series of annual reviews in terms 
of our resource requests for the next year, evaluating how well 
we have done in our results up until that time.
    We also use external evaluations and internal evaluations. 
It's about a seven-or eight-tiered process that we use, and do 
not believe that any one indicator or one set of indicators, be 
they internal or external, are what is needed to really 
evaluate a system in terms of the type of assistance that you 
should be providing. So we do believe that our system is fairly 
good, not perfect, and it is in fact getting better. We are 
working on trying to increase the effectiveness of our 
indicator system.
    I wanted to make another comment. In terms of keeping 
political space open, I think that in talking about the idea of 
political will, which is tremendously important for any of our 
programs, political will is not a model. You have to find the 
targets of political space where you can and try to keep them 
open. One should not walk away if in fact there are places 
within society that you can work.
    I think the examples that one can really use in that sense 
is that anyone asked a year ago if you should be working in 
places that had no political will on the top, such as Croatia 
or Serbia, people would have said, of course not, you don't 
work there. But I think a lot of our efforts in countries like 
that, working with the media reformers, civil society people, 
made a tremendous difference when the opportunity arose. I 
think that we have to keep that in mind.
    Again, in many cases, that doesn't have to be a lot of 
money. But it really is important that you make sure that you 
keep the political space open in countries.
    Finally, I want to agree that it's certainly within our 
national interest to help create open and transparent and 
accountable systems that people can trust, that they can 
adjudicate their grievances. This is essential in order to 
prevent conflict and also to promote trade and investment.
    Thank you very much.
    [The prepared statement of Ms. Gary follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.019
    
    [GRAPHIC] [TIFF OMITTED] T9866.020
    
    [GRAPHIC] [TIFF OMITTED] T9866.021
    
    [GRAPHIC] [TIFF OMITTED] T9866.022
    
    [GRAPHIC] [TIFF OMITTED] T9866.023
    
    [GRAPHIC] [TIFF OMITTED] T9866.024
    
    [GRAPHIC] [TIFF OMITTED] T9866.025
    
    [GRAPHIC] [TIFF OMITTED] T9866.026
    
    [GRAPHIC] [TIFF OMITTED] T9866.027
    
    [GRAPHIC] [TIFF OMITTED] T9866.028
    
    [GRAPHIC] [TIFF OMITTED] T9866.029
    
    [GRAPHIC] [TIFF OMITTED] T9866.030
    
    [GRAPHIC] [TIFF OMITTED] T9866.031
    
    [GRAPHIC] [TIFF OMITTED] T9866.032
    
    [GRAPHIC] [TIFF OMITTED] T9866.033
    
    [GRAPHIC] [TIFF OMITTED] T9866.034
    
    [GRAPHIC] [TIFF OMITTED] T9866.035
    
    [GRAPHIC] [TIFF OMITTED] T9866.036
    
    Mr. Shays. Thank you very much, Ms. Gary.
    Mr. Swartz.
    Mr. Swartz. Mr. Chairman, thank you for inviting the 
Department of Justice to testify today on the important issue 
of rule of law assistance to the Newly Independent States. With 
the subcommittee's permission, I would like to submit my full 
statement for the record and summarize my testimony this 
morning.
    Mr. Shays. You can proceed. It will be part of the record.
    Mr. Swartz. Thank you.
    There are four points I would like to make today. The first 
is that rule of law assistance is a vital part of our 
international crime control strategy. As the subcommittee is 
well aware, international crime has been denominated a national 
security threat to the United States and to its citizens.
    In the international crime control strategy developed by 
the Departments of Justice, State and Treasury, one of our 
primary goals was to extend the first line of defense against 
international crime abroad. As that strategy recognizes, one of 
the key components of extending the defense abroad is to ensure 
that we have effective law enforcement partners in foreign 
countries to establish a seamless web of cooperation.
    The strategy itself points out that can be accomplished 
only if the United States is in a position to provide 
assistance to those countries that are not at a stage where 
they can be effective law enforcement partners.
    The second point I would like to make is that the 
Department of Justice, in implementing its rule of law 
assistance to the Newly Independent States has constantly 
sought to follow our international crime control strategy. That 
is, our goal has not simply been to assist the citizens of the 
Newly Independent States, important as that goal is, but to try 
and assure the safety of the citizens of the United States of 
America.
    In order to do so, we have sought to ensure law enforcement 
partnerships, wherever possible, in the Newly Independent 
States, on all levels of the criminal justice system. At the 
prosecutorial level, the Department of Justice has placed 
resident legal advisors, experienced Federal prosecutors, in a 
number of the Newly Independent States.
    Those prosecutors have not only been advocates for improved 
training and trainers of prosecutors, their foreign 
prosecutorial counterparts, but have also become trusted 
advisors. Those prosecutors, as I was stating, have not only 
been important in terms of the prosecutorial training that they 
have done for their foreign counterparts, but they have also, 
because of their long term status in the country and their 
expertise, become trusted advisors on issues of law reform.
    With regard to the judiciary, working in cooperation with 
the ABA-CEELI program, the Department of Justice has placed a 
number of criminal law liaisons in the Newly Independent 
States. Those law liaisons have been important in helping 
develop an independent judiciary. Finally, and not least in 
this regard, the Department of Justice has established a number 
of relationships at the police level through training by our 
Federal law enforcement agents, both in country and also at the 
ILEA in Budapest.
    The third point I would like to make is that we feel that 
while it is clear there are many obstacles to success in NIS, 
that we have made significant strides through the rule of law 
assistance that we've provided on the law enforcement side. In 
Russia and Georgia, for instance, new criminal codes have been 
drafted, and that's an important development not only for the 
peoples of those countries but also for our citizens, since any 
predicate for effective law enforcement cooperation and to 
ensure that crimes are prosecuted in those countries, rather 
than flowing at the United States, can only take place when the 
legal framework exists.
    Even the GAO report at pages 12 to 14 recognizes the 
significant assistance that Federal law enforcement has 
provided in the drafting of constitutions and laws in the Newly 
Independent States. We believe that is no small achievement.
    Similarly, with regard to the judiciary, again we believe 
that there has been significant success in helping to create an 
independent judiciary in a number of Newly Independent States. 
To be sure, we are not there yet. But again, without our 
assistance we don't think we'd be anywhere near that close to 
the place where we need to have our effective counterparts to 
be.
    Again, I would refer the subcommittee to pages 16 and 17 of 
the GAO report, which catalogs some of those successes. And in 
all of the Newly Independent States, our law enforcement 
agencies have laid the foundations for partnerships with their 
foreign counterparts, partnerships that have already borne 
fruit in terms of joint investigations that directly affect and 
benefit U.S. citizens.
    Again, the GAO report notes this on page 26, but we feel 
does not give it significant attention. This we feel is among 
the most important of our accomplishments, that we have created 
the kind of networks that will benefit U.S. citizens.
    My fourth point is that although we believe that the GAO 
has undervalued the successes that we've attained thus far, we 
agree that changes do need to be made and improvements can be 
made. As the report itself notes, and as the panel noted 
earlier today, those improvements already have begun over the 
past several years. We fully agree with the idea of moving 
toward a more project based approach toward funding of rule of 
law assistance. And we believe in trying to, wherever we can, 
develop effective methods of testing what we have accomplished.
    We'd like to stress again, however, that it's not only 
sustainable institutions, but sustainable relationships that 
we're working toward here. And we believe particularly with 
regard to the latter, we have had some signal successes thus 
far.
    In conclusion, we believe that the Department of Justice's 
rule of law assistance has been of significant value, not only 
the citizens of the Newly Independent States, but to the 
citizens of the United States. To be sure, much remains to be 
done. But non-engagement in our view is not a realistic 
alternative. It is essential for our law enforcement interests 
and for the protection of our citizens that we remain fully 
engaged in seeking to create stable law enforcement partners in 
the Newly Independent States.
    Thank you. I'll be happy to answer your questions.
    [The prepared statement of Mr. Swartz follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.037
    
    [GRAPHIC] [TIFF OMITTED] T9866.038
    
    [GRAPHIC] [TIFF OMITTED] T9866.039
    
    [GRAPHIC] [TIFF OMITTED] T9866.040
    
    [GRAPHIC] [TIFF OMITTED] T9866.041
    
    [GRAPHIC] [TIFF OMITTED] T9866.042
    
    [GRAPHIC] [TIFF OMITTED] T9866.043
    
    [GRAPHIC] [TIFF OMITTED] T9866.044
    
    [GRAPHIC] [TIFF OMITTED] T9866.045
    
    [GRAPHIC] [TIFF OMITTED] T9866.046
    
    [GRAPHIC] [TIFF OMITTED] T9866.047
    
    [GRAPHIC] [TIFF OMITTED] T9866.048
    
    [GRAPHIC] [TIFF OMITTED] T9866.049
    
    Mr. Shays. Thank you, Mr. Swartz.
    Mr. Prahar.
    Mr. Prahar. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished members of the committee, 
thank you for the opportunity to talk about the direction of 
our rule of law programs in the Newly Independent States. You 
have a copy of my prepared testimony and I request that you 
accept that testimony.
    Mr. Shays. That will be part of the record, as well as the 
statements of all.
    Mr. Prahar. Thank you.
    Today I am going to summarize to you the response of my 
bureau, the Bureau for International Narcotics and Law 
Enforcement Affairs of the Department of State to the GAO 
report. I'm happy to report that INL has already undertaken 
initiatives to address the issues raised in the report prior to 
the GAO study. We believe that the fundamental restructuring 
which we have undertaken, which includes INL's assistance 
programs not just in the NIS, but worldwide, addresses many of 
the criticisms in the GAO report.
    First, let me stress that we agree with the GAO and our 
colleagues here today that the difficult political and economic 
conditions in the region have hampered effective implementation 
of rule of law programs during this period. We think, however, 
that we've seen some real progress. My colleagues have provided 
examples of that here today and in their response to the 
report.
    That said, we also agree with the GAO that INL managed 
assistance in the 1995-1998 period fell short in the area of 
sustainability and monitoring. Based on lessons learned in the 
NIS and worldwide, we have substantially modified our approach. 
Our new approach, begun in fiscal year 2001, has two key 
elements. The first is that it is project based. The second is 
that initial decisionmaking is decentralized.
    By project based, we mean interagency, multiyear and 
multidisciplinary law enforcement projects, rather than 
isolated standalone training courses. We built into these 
project designs sustainability and measures of effectiveness.
    Second, regarding decisionmaking being decentralized, the 
chief of mission, that is the Ambassador, decides now what to 
request and determines the priority of the assistance and 
training requirements for his or her country. The chief of 
mission works with the law enforcement working group at post, 
comprised of representatives of all law enforcement agencies at 
the post to make these determinations.
    Let me describe our project based approach and our methods 
for ensuring sustainability in a little more detail. We know 
full well that our projects cannot succeed without host 
government commitment and will. Because of this, we have asked 
our missions in the NIS to develop, negotiate and sign letters 
of agreement with the governments in the NIS region. These 
letters of agreement represent host government engagement in 
and commitment to the bilateral relationship. A LOA, a letter 
of agreement, clearly describes the law enforcement programs we 
have agreed to cooperate on, sets forth what is expected of 
both governments, and describes the measures that will be used 
to evaluate the success of the programs.
    LOAs have been a powerful management and internal control 
tool in Latin America, Africa, Asia and the Middle East. And 
they will be in the NIS region, as well.
    While we're in general agreement with the recommendations 
of the GAO report, I would like to draw your attention to one 
comment that may be somewhat misleading. The GAO report notes 
that about $33 million in INL managed funding for fiscal years 
1995 to 2000 had been obligated for law enforcement training 
and other assistance that has not yet been provided. The report 
may leave the misimpression that these funds may not be used in 
the most effective way, and that the activities they fund will 
be subject to the management weaknesses identified in the GAO 
report.
    I wish to assure the committee that we at INL have been 
working with the law enforcement agencies to ensure that the 
$33 million in undelivered courses and assistance in the 
pipeline is fully integrated in the comprehensive and 
sustainable projects. I'm happy to report that the law 
enforcement agencies are cooperating fully with INL in this 
effort.
    I would also like to draw your attention to one other point 
in the report. The report failed to take note of the extensive 
work with NGO's that INL has undertaken. In the last 5 years, 
INL has funded over $6 million in community policing, domestic 
violence and anti-trafficking grants with NGO's and 
universities, working especially with Russian and Ukrainian 
counterparts. We are proud of these programs and believe they 
are effective in contributing to the development of rule of law 
cultures.
    In conclusion, I would like to stress the importance of 
assistance programs and their relevance to national security. 
My law enforcement colleagues have briefly addressed the 
specific crime threats to the United States from these 
countries and have highlighted the role that assistance 
programs play in developing competent and reliable foreign 
counterparts. It is thanks in part to the assistance from INL 
managed programs that our U.S. law enforcement colleagues can 
operate successfully against transnational crime threats to the 
United States.
    In a nutshell, if we do not implement programs that develop 
effective institutions, U.S. law enforcement agencies will have 
no one with whom to cooperate. That is the challenge before us 
and what we are trying to accomplish.
    Thank you. I'd be happy to answer questions.
    [The prepared statement of Mr. Prahar follows:]
    [GRAPHIC] [TIFF OMITTED] T9866.050
    
    [GRAPHIC] [TIFF OMITTED] T9866.051
    
    [GRAPHIC] [TIFF OMITTED] T9866.052
    
    [GRAPHIC] [TIFF OMITTED] T9866.053
    
    Mr. Shays. Thank you, Mr. Prahar.
    Ms. Hicks.
    Ms. Hicks. Thank you, Mr. Chairman.
    I'm pleased to be here today to discuss Treasury's role in 
providing rule of law assistance to the 12 Newly Independent 
States of the former Soviet Union. While Treasury has provided 
advice on drafting money laundering and other legislation in 
these countries, most of our rule of law assistance has been 
law enforcement training by our law enforcement bureaus and 
offices. In providing training to these countries, Treasury and 
its bureaus worked closely with the State and Justice 
Department.
    In the area of international law enforcement training, 
Treasury has two main goals. In the shorter term, we work to 
build relationships with our law enforcement counterparts that 
enable us to work together on particular matters, improving 
both nations' ability to protect their citizens from criminal 
activity. In the longer term, we seek to support broad U.S. 
Government efforts aimed at assisting the foreign government in 
establishing and maintaining fair and effective law enforcement 
institutions.
    Today I will briefly outline our efforts to design, 
coordinate and evaluate our training programs to meet these 
goals. Of course, international training is an interagency 
effort. Treasury and its bureaus provide international law 
enforcement training as part of a broader plan for a country or 
region.
    In coordination with the Departments of State and Justice, 
and the host nation, Treasury and its bureaus lend their 
expertise in a wide variety of areas. In recent years, we have 
provided law enforcement training to the Newly Independent 
States both directly and through the International Law 
Enforcement Academy in Budapest. Among other things, this 
training has been on firearms trafficking, excise tax 
administration, forensics, economic fraud, counterfeiting and 
money laundering.
    The majority of training courses that we have provided to 
these countries has been Customs Service training on various 
types of smuggling, including drug trafficking, weapons of mass 
destruction and child pornography. As detailed in my written 
statement, Operation Blue Orchid, a recent U.S. Customs case 
with the Moscow City Police, provides a useful illustration of 
our training efforts. In Blue Orchid, Customs worked with a 
unit within the Moscow City Police to take down a Web site in 
Russia that depicted the sexual and physical abuse of children. 
Most of the Web site's customers were located in the United 
States. The investigation led to enforcement action in Russia, 
the United States and other countries.
    While working the Blue Orchid investigation, Customs 
provided training, funded by the State Department, at Customs' 
cyber-smuggling center to the Moscow City Police, the same unit 
that was working on the investigation. The training helped the 
Moscow police pursue the case, and the success of Blue Orchid, 
in turn, reinforced the training. The joint investigation also 
strengthened Customs' working relationship with the Moscow 
police.
    As a result of Blue Orchid, Russian authorities are better 
equipped to combat child pornography on the internet. Just as 
importantly, Customs' improved relationship with the Moscow 
city police has enhanced Customs' ability to enforce U.S. laws 
relating to child pornography.
    While we are pleased when we have success on a particular 
case, our goal is to sustain the progress we make and improve 
the overall functioning of the foreign law enforcement 
institutions. The primary way we seek to accomplish this is 
through our coordination with other U.S. agencies, particularly 
the Departments of State and Justice and the host nation. We 
support the Department of State's efforts to increase the 
sustainability of the international training program.
    In addition to our work with State, we also seek to make 
sure our own efforts support improvements in foreign law 
enforcement institutions that are sustainable. Among other 
things, we build relationships with foreign law enforcement, 
provide the trainer courses, and evaluate the training provided 
to make necessary adjustments.
    We continue to believe that international law enforcement 
training serves U.S. interests. It enables us to improve our 
relationships with our overseas counterparts to better protect 
the American public from international crime. In addition, by 
assisting foreign governments and developing effective law 
enforcement agencies, we believe we can stop criminal activity 
before it reaches the United States. And in the long term, it 
supports the creation of stable democratic societies.
    We have worked closely with the Departments of State and 
Justice to improve our international training efforts, and we 
are committed to continuing this cooperation.
    In closing, I want to thank the committee for its interest 
in this important issue. And I'd be happy to answer any 
questions.
    Mr. Shays. Thank you, Ms. Hicks. We are very interested in 
this issue, and we appreciate the good work of my staff and I 
appreciate the quality of both panels that are before us.
    I wonder if you all have thought about it yourself, the 
cold war is over, but I feel the world is a more dangerous 
place. I also feel that for a variety of reasons, some of which 
are easy to understand, others which make me wonder, I feel 
that Americans are particularly targets around the world, that 
there is, Tianneman Square, in the United States, was viewed as 
the hero to the extent that we had a system that people wanted 
to model. We're learning today that Chinese, the young people 
in China have tremendous antagonism for the United States. It 
was really, candidly, a surprise to some of us.
    Which is to say, when we set up these programs, how do you 
assure these host countries that we aren't trying to 
proselytize American democracy and American ways, and that we 
are simply trying to have them understand how they can have 
this system of law that works for them?
    Let me say it this way. First, is this the problem, or am I 
perceiving a part of it that doesn't exist? Do some people 
question our motives and so on, and then how do you deal with 
it?
    Mr. Rosenblum. Some people do question our motives. Some 
people in these societies do, and sometimes people in the 
governments. I think it's definitely country specific. There's 
a lot of variety of diversity among the NIS countries in that 
regard. And my colleagues have more probably specific examples 
they could cite. But I think we're particularly sensitive to 
this reaction, or we tend to get it in Russia, frankly, because 
of the past history of the cold war and the superpower 
confrontation. A little more sensitivity to not wanting to be 
lectured at by Americans.
    I'm talking very generally, though, not specifically about 
in the law enforcement area. Again, my colleagues can confirm 
whether that's the case there.
    In the other NIS, there's much more willingness to listen 
to American models and experience, not always to apply it, 
unfortunately, as we've seen. So I guess it is a factor, and 
I'd say it's particularly a factor with Russia. I'd be 
interested if others have comments on that.
    Mr. Shays. I think what we'll do is just go down the list.
    Ms. Gary. I think from a USAID perspective, we have found 
clearly that is something that is not particularly useful to 
do, that is, the systems that we have are very unique to the 
United States. What we need to do is define those aspects of 
the systems which are best studied, or things that other groups 
can learn from. I think that we have particular expertise in 
such areas, certainly in civil society, we have one of the most 
robust civil societies in the world. There are a lot of 
experiences here that our groups can transmit to others, 
likewise in the local government arena.
    So I think that we really do try to take out those aspects 
that are best suited, or that we believe these countries can 
benefit from without imposing our system. Likewise we've found 
that it's incredibly useful to do exchanges within the region, 
that groups learn a lot from each other in terms of some of the 
things that we've done in Georgia, for instance, in terms of 
the examination for judges there, the system that the Georgians 
have taken over themselves. We've been able to take some people 
from Kazakhstan and other places to look to see how that's 
worked. So we've found that has been a very useful tool.
    Mr. Shays. My staff made the comment, rule of law versus 
rule of our law, but then the next comment was parachuting in 
dozens of U.S. lawyers could be seen as a hostile act. 
[Laughter.]
    Mr. Swartz. Even in the United States. [Laughter.]
    Mr. Chairman, it is certainly an issue that we have to be 
sensitive to throughout the countries we deal with. On the law 
enforcement side, we go to great lengths to stress that what 
we're talking about is a law enforcement partnership. To be 
sure, we particularly in the legislative and constitutional 
area, do try and advance the constitutional rights, the 
criminal codes and procedures that we feel are appropriate. But 
we try to do it within the context of the systems of the Newly 
Independent States and explain why we're doing this, rather 
than try and impose it from above, not that we are in a 
position, obviously, to impose directly.
    On the law enforcement side, in particular the training of 
law enforcement agents, I think that there's a real advantage 
to our law enforcement agents being able to share their 
experiences, the difficulties that they themselves have faced 
in law enforcement matters, to elicit the kinds of reactions 
from their counterparts and to suggest again that this is a 
common fight that we have against international crime. It 
doesn't always go across all areas of crime, but we think it 
has had a successful result so far in many areas of crime.
    Mr. Prahar. Well, I certainly agree that it's a legitimate 
concern. I'm afraid that those that have worked abroad many, 
many years can find bad examples of people coming with their 
flags flying and clearly proselytizing for a way.
    Our programs, I think, begin with an awareness of our own 
uniqueness. That's particularly true in the legal field. We're 
working with our counterparts in the NIS, the government 
completely different or rapidly evolving legal system. A lot of 
what we do here in this country isn't going to apply to them.
    At the same time, we are proselytizing. I do represent the 
United States abroad, I am very proud of our systems, and don't 
have any problems sharing good experiences with them. To 
address that issue, though, we have certain techniques. Many 
times it behooves us to get out of front row center in these 
programs. Here in INL we work, for example, through the U.N.
    On occasion, we work through NGO's. We can work through the 
financial action task force on money laundering issues. We 
don't necessarily have to be the lead on these, and we can 
accomplish the objectives or help these countries accomplish 
the objectives we want through that. We don't necessarily need 
a bilateral program every single time.
    Mr. Shays. Thank you, Mr. Prahar.
    Ms. Hicks.
    Ms. Hicks. Well, in the law enforcement training area, I 
think we do it in a couple of ways. I think first of all, our 
daily relationships, particularly on joint investigations, is 
very helpful. Because it gives both nations sort of the same 
goal, and allows them to sort of work in their country and us 
in our country and communicate back and forth and share 
information. So I think that helps build a trust level among 
the law enforcement entities.
    On the training courses, we have had evaluations in past 
years of criticisms of the training, that it was too American 
focused. We have worked to overcome those criticisms by 
focusing a lot more on the criminal threats that the host 
nation faces. We now do a lot more interaction, I think, within 
the embassy and with State and Justice to try to address the 
crime problem as it exists in that country within the legal 
framework that the law enforcement folks have to work in there.
    For example, Customs now sometimes, often in their courses 
on border control, go out to the border control areas of that 
country to see first hand the equipment that they have and the 
kinds of challenges that they face daily there, as opposed to 
just limiting it to the classroom and sort of theoretical 
discussions of border control.
    And we also encourage in the classroom a free flow of 
discussion about the situation as it exists in the host country 
as well as we get feedback on the courses that we do about how 
useful the course was, what was most useful, what wasn't 
useful, those kinds of things, so that we can constantly make 
adjustments to the courses going forward, because we want them 
to be useful to the host nation and not just seem like you have 
to suddenly do everything our way or there's no other right way 
to do it. So we have tried to address that.
    Mr. Shays. Thank you. When I look at, as we've been 
reviewing the papers preparing for this hearing and hearing 
testimony, last week we had testimony from a gentleman named 
Mr. Slovekian and his wife, Maria, Resevati. He was in jail for 
30 years for a crime he never committed, fingered by a corrupt 
FBI informant. And the FBI knew, Chelsea police knew and the 
Boston police knew and Massachusetts State Police knew. And you 
think, my God, this can't happen, and it did. She visited him 
for 30 years.
    Now, I'm mentioning that so we're not self righteous about 
our system and realize that there are sometimes some real 
breakdowns. People in four different law enforcement bodies 
knew that this man was clearly innocent of a crime he didn't 
commit. But at the same time, I think of how much we take for 
granted the system we have.
    If you were to tell me in a system of rule of law whether 
honest police are the most important, honest prosecutors and 
judges, honest politicians, honest bureaucrats, and I'd even 
say honest citizens, but I'm going to leave citizens out for 
now, and bureaucrats, of those three, honest police, honest 
prosecutors and judges and honest politicians, which becomes 
the most important? Anybody thought about that? And I'd like to 
know what you say it. And then we'll get to some other 
questions.
    Mr. Swartz. Mr. Chairman, although this may not be a 
completely satisfactory answer, one thing that we have found in 
our rule of law assistance is that you can't build any real 
success without working on the honesty of all of those levels. 
That is, if you train the police, if you establish a vetted 
police unit, if you have, there are corrupt prosecutors or 
prosecutors are not prepared to go forward with the cases, it 
doesn't accomplish anything. Of course, the same is true with 
the judiciary.
    I'm not sure that I can say which is the most important to 
work on, but I think it's fair to say we believe that all of 
them have to be worked on simultaneously. And I think that does 
go to the kind of project based approach that the Department of 
State has referred to in its testimony.
    Mr. Shays. Does anybody else want to respond?
    Mr. Rosenblum. I would say that, not talking specifically 
about our assistance, but about what's most important to make 
rule of law work, the one that we have the least control over I 
think is the most important, and that is the honest leadership, 
the honest government. Because I think it all starts from 
there. That gets to the question of political will that the GAO 
identified in their report.
    So you know, we can work in all of these other areas. But 
ultimately, it does come down to that leadership and political 
will, I think. And that, we have to recognize that. I think 
that has to make us a little modest about what we're ultimately 
going to be able to do without that element.
    Mr. Shays. You can tell them how the process should work, 
you can do even some preaching, but you need honest people to 
make it work.
    I'd like each of you to name one lasting accomplishment of 
a rule of law program you've funded. Why don't we start there, 
a lasting accomplishment of a rule of law. We don't have to 
take it in order.
    Ms. Gary. I can start if you'd like.
    Mr. Shays. It's not a trick question, but one that you've 
said, my gosh, this is a best practice, it's one of wonderful 
success, tell us about it.
    Ms. Gary. I'd like to say that the success and lesson 
learned from that success that I would probably take Georgia 
and the examinations that they have instituted for their 
judges, that they now have taken over that system of doing 
examinations, over 80 percent of the judges have been tested. 
There are people that have been actually thrown off the courts 
because they have not passed.
    They also have an ethics group that also has gotten people 
off the bench. And it's a process that they have taken 
ownership of, and that's really important, that it is theirs 
now and they will move it forward and they will have to adjust 
it as it goes along. So that's what's really important.
    The lesson learned, however, is that you can't claim 
success and move on, because one of the things that was also 
promised in that reform movement was that the judges would get 
higher pay. That has not happened yet. So that is something 
that one has to work with as well, to make sure that the 
support structures also come through, so that as we often think 
about in the political process arena, in terms of an election 
does not a democracy make, I think that's true with any one of 
these systems as well.
    Mr. Shays. Thank you, Ms. Gary. Mr. Swartz.
    Mr. Swartz. If I could focus on Georgia as well, I think 
that the anti-corruption commission is something that we would 
point to as significant and we believe lasting success. Time 
will prove, of course, but it is something that the Department 
of Justice worked on long and hard with our colleagues.
    We also I think learned an important lesson from it, and 
that is the importance of developing grass roots support for 
something along these lines. Because it was not only by pushing 
it to higher levels, but by helping to create grass roots for 
anti-corruption, we were able to succeed in establishing that 
commission.
    Mr. Shays. Anyone else want to jump in? Don't be reluctant.
    Mr. Prahar. In terms of success on the ground, I'll let my 
colleagues speak for the successful projects that we've been 
behind. The thing that we have come out of this, and it 
relates, I think more to process, thinking back to 1995, our 
programs were almost entirely counter-narcotics oriented. We 
worked with three law enforcement agencies, DEA, Customs and 
Coast Guard. We've spun up a relationship now involving 21 law 
enforcement agencies, fielding programs all over the world, 
including in the NIS. We have learned, I think, and the success 
in our part, how to improve those programs in the future.
    I have in mind not a success that I can show you today, but 
a success that I think we're on the cusp of, and that's in 
Georgia. Again we go back to Georgia. It's no coincidence 
there, because the political will to make the necessary and 
hard changes is evident. In 1998, we identified a requirement 
for forensics laboratory upgrades in Georgia, and we put aside 
some funding for that. We also, when we did our assessment, 
determined that the political will to go forward and do the 
hard and necessary in Georgia wasn't there. So we stopped.
    And I think, Mr. Chairman, you asked the question earlier 
of the GAO, do you know of any projects that have been stopped 
in the face of adversity, and the answer is, I have many 
examples of them. This is one of them. We could have pressed 
ahead, we could have wasted our money, and we didn't.
    Recently, a new minister of justice has come into office, 
he's young, he's energetic, he's reform minded, he has the full 
and unconditional backing of President Scheverdnaze, and we 
spun up another assessment to Georgia to look at what we could 
do there. On that assessment team, DOJ was represented by 
several of its offices. ATF was represented, State was 
represented, and later, Secret Service and FBI have expressed 
an interest in this.
    They looked at this kind of project that we could implement 
there with the support of the host government and with the 
cooperation of the host government and determine, you know, we 
didn't simply need labs and lab equipment. We needed a holistic 
approach, a soup to nuts program, which is what we are prepared 
to implement now.
    Mr. Shays. Thank you very much.
    I think some of you have said why there were a success. But 
it would be, let me just ask that we have three programs, well, 
two plus a process, success. I'd love to know in Georgia why it 
was a success, because there was the political will, pretty 
much, and the level of involvement with the host country was my 
other question, and that is because they are involved in this 
process. You're nodding your head, Ms. Gary, but it doesn't 
show up in the transcript.
    Ms. Gary. Yes. That is the case, they had the political 
will and they were very involved.
    Mr. Shays. And you need to involve the host country.
    Ms. Gary. Correct.
    Mr. Shays. I feel a little bad asking what was a failure, 
since some of you didn't step in and say what was a success. 
But learning from our failures is important, too, right? And if 
we had no failures then we aren't taking any risk. So I'd like 
to know of a failure and I'd like to know why. Everybody's 
looking at someone else. [Laughter.]
    Mr. Swartz. We've had instances, Mr. Chairman, in which 
we've found that our training, our proposed training, has 
actually in a sense put the cart before the horse. Money 
laundering in Russia, for instance, early on the Department of 
Justice had received funding to do money laundering training in 
Russia, and proceeded on the assumption, based on what we'd 
been told by our Russian counterparts, that there was an 
effective Russian money laundering law.
    We quickly discovered, however, that was not the case. But 
if one considers this a failure or a recognition of having to 
pull back, as my colleague has suggested from State, we 
realized that more fundamental work had to be done first, that 
is, trying to establish the will to act against money 
laundering and put legislation in place. But I think it is fair 
to say that we've discovered in some instances that the work 
that needed to be done was more fundamental than we originally 
anticipated.
    Ms. Gary. I would say that some of our efforts that we did 
in terms of trying to work with parliamentary strengthening, 
Congressional Research Services that we tried to develop, in 
which we found one, were very costly, often inappropriate 
technology, they really didn't have the infrastructure for it, 
they didn't have the staff, and there was really not the 
political will to do it.
    Oftentimes they were unstable institutions, so those were 
things that we found that made us back away from working in 
that arena, as well as sometimes another institution that we 
found very difficult to work with are legal education 
institutions, because they also are not very prone to change. 
What we've done in situations like that is help establish 
oftentimes legal clinics that are then run by young, energetic 
lawyers and provide access to citizens to the legal system that 
they otherwise wouldn't have. So that's a matter of trying to 
deal with when you've got a constraint, how you try to find 
another way to deal with the issue.
    Mr. Shays. Let me just ask you, how do you monitor and 
evaluate programs? How does USAID monitor and evaluate 
programs? What's the system you use?
    Ms. Gary. We start off with something called a country 
strategy that we usually develop, a 5-year strategy. We then 
have what is called an R4, that's the resource results and 
resource request. That's a yearly exercise in which you look at 
all the programs that you have and you look at them again, 
their progress against indicators and targets. You look to see 
if they are in fact living up to the expectations that you had.
    You do that again every year. And when you find that they 
are not measuring up, you try to find out why, and you alter 
the program accordingly.
    An example that I would give right now that I think is 
pretty apropos is, we have spent not an insignificant amount of 
money in the rule of law in the Ukraine. Now for the Ukraine 
rule of law, there is nothing budgeted for the next couple of 
years in terms of the judiciary, until they in fact pass the 
law of the judiciary, without which we do not think that we can 
move forward.
    Mr. Shays. What I need to do is break for no more than 5 
minutes. I'm sorry, but I need to break for 5 minutes. My 
intention is to conclude by 2 o'clock, so this will be short. I 
may be less than 5 minutes, but no more than 5 minutes.
    [Recess.]
    Mr. Shays. I call this hearing to order.
    And we were in the process of your telling how you 
evaluate, Ms. Hicks, and I would like the same question for the 
other agencies. How do you monitor and evaluate a program?
    Ms. Swartz. Mr. Chairman, with regard to our different 
types of programs, are of course, evaluated in different ways. 
For the resident legal advisors and the criminal law liaisons, 
that's an evaluation according to their success in actually 
achieving not only prosecutorial training goals but more 
importantly, becoming advisors to the states. I think we have 
seen a remarkable level of success, particularly in the 
legislative and constitutional area.
    With regard to our training programs, we do a variety of 
assessments, including evaluations filled out by those taking 
the training, especially at ILEA. And it's constantly a process 
of evaluating and reevaluating what those program offerings are 
to see if they are effective, both for our colleagues, our 
foreign counterparts, and from our point of view in terms of 
developing those counterparts into effective partners.
    Ms. Hicks. We evaluate our law enforcement training 
similarly, I think, to the Justice Department. We participate 
with Justice and State in tweaking the ILEA programs as is 
necessary to make sure that they're being as effective as 
possible. We also look at referrals from the things. And our 
in-country are very helpful, as is the embassies where we don't 
have people permanently stationed to make better determinations 
of what agencies are being effective. Because sometimes they'll 
want to train a certain agency, and having folks in the country 
and working with the embassy, we know that perhaps that's not 
the correct agency to be trained and those kinds of things.
    So we do a variety of means too, to try to do it. And 
constant communication, I think, between State and Justice and 
Treasury on what we're finding out and what we see I think is 
critical to effective monitoring.
    Mr. Shays. So far, I guess what I'm kind of wrestling with 
is how we measure success. It seems like it's somewhat of an 
art form here. So I'm being assured that we are monitoring. I 
guess what I'm not hearing is how we measure success or 
failure.
    Ms. Hicks. I think measuring success, even among U.S. law 
enforcement agencies, is an art form, and it's difficult to do. 
I think what we look for a lot of the times is our ability to 
find people over in another country, an agency that we can work 
with, and whether the agency is improving its ability to work 
with us or not. Because oftentimes that speaks to larger 
institutional issues about integrity and effectiveness and 
those kinds of things.
    For example, where we have countries where we have a unit 
that we can work with, we develop more confidence in them and 
we try to put more training into those. We hope to see joint 
investigations out of it and information exchange.
    Mr. Shays. This is a good lead in, though, to this 
question, and I noticed that with Justice as well, in the 
Justice and Treasury testimony, it appears the goals of 
assistance are networking and protecting the United States, not 
necessarily establishing the rule of law. And so what are the 
goals of the rule of law program?
    Mr. Swartz. Mr. Chairman, the rule of law used as the 
largest rubric for this encompasses both the law enforcement 
training, cop to cop, as the term is used, and trying to 
develop the legal framework at the other extreme, that is the 
constitutional and legislative framework. We believe both are 
important and both have to be looked at as part of the measure 
of success, in large part because it's not only the police 
networks and the cooperation on particular cases, important as 
that is.
    But we have to be able to ensure or to try to work to 
ensure that a foreign country has in place the ability to 
prosecute crimes in that country, crimes that otherwise might 
flow outside the country, and has the ability to criminalize 
conduct that allows them to consider that conduct the 
appropriate subject of mutual legal assistance for the United 
States.
    So all of those feed into our assessment of what a success 
is. But we fully agree with Treasury's views on that as well.
    Ms. Hicks. I would just add that we see the agency to 
agency cooperation as a way of supporting overall rule of law 
sort of from the bottom up as one of the earlier speakers 
mentioned. Because having people within an agency committed to 
doing it the right way can help lead to larger reforms that are 
needed from the top down, which our law enforcement training, 
we do train managers, but oftentimes we're trying to train sort 
of the front line folks that are doing the day to day work.
    But it I believe creates hopefully an environment that is 
supportive of larger reforms, such as completely revamping the 
way the border police operate or things such as that. So it is 
designed, not only does it serve the United States in getting 
us information, but we hope that it supports the larger, 
broader institutional changes of the country.
    Mr. Shays. Mr. Prahar, I just want to resolve what appears 
to be an inconsistency, which may not be, and it deals with the 
$35 million of obligated but under-utilized funds.
    Mr. Prahar. That's right.
    Mr. Shays. In part of your testimony you talk about, you 
seem to give the impression that there isn't cooperation. 
You're saying, there's a sense that you're saying you're not 
getting cooperation, in another part you're saying you're 
getting cooperation. Let me put it this way. The GAO is 
questioning whether you're getting cooperation. And I'm 
interested to have you respond to that. You say on page 3, I am 
pleased to say that we are receiving excellent cooperation from 
the law enforcement agencies.
    Mr. Prahar. And that is correct.
    Mr. Shays. And there's no question?
    Mr. Prahar. There's no question about that. The pipeline 
issue is one we've been wrestling with for about a year and a 
half. What we're attempting to do and what I think we're 
succeeding in doing is reprogramming these courses or 
scheduling these courses in support of broad based projects. 
The law enforcement agencies understand this entirely and are 
fully supportive.
    Mr. Shays. I'm going to have counsel just ask this 
question.
    Staff Counsel. The question is, in the Department's written 
response to the GAO draft, the Department urged GAO to 
recommend its cooperation, leaving, I think, the reasonable 
impression that it wasn't there or you wouldn't need to urge 
it. Now in testimony you say it is there. So did it appear 
between?
    Mr. Shays. This is not a trick question.
    Mr. Prahar. No, it's not a trick question. I assume the 
language was included in our written response to emphasize the 
importance of this. We regard this as an extremely critical 
process that we're engaged in and we haven't detected any 
backsliding. But more words to the wise would be welcome.
    No, the law enforcement agencies understand what we're 
doing, are cooperating with what they're doing. We have the 
same goal moving beyond courses to building institutions with 
which we can work in the future. And that's it.
    Mr. Shays. Let me ask you this question before we conclude. 
In your testimony you discuss letters of agreement with the 
host country. What preconditions are placed on the host country 
in order to receive assistance? And what are the consequences 
if the host country does not live up to the LOA?
    Mr. Prahar. Letters of agreement have two parts to them. 
The first part is the project design where we set out what is 
going to be done, who's going to do it and how success is going 
to be measured. In that area, we would obtain a commitment, for 
example, from a host government to provide facilities, pay 
staff, hire appropriate personnel, provide for transportation. 
We would maybe provide some technical assistance, some 
specialized equipment.
    In the second portion of an LOA, we have what we call 
standard provisions which give us a number of, make the rules 
of the road clear, let's say, about such matters as privileges 
and immunities of people participating in this duty free entry, 
but also committing the host government to retaining personnel 
that have received assistance and training for 2 years in 
related positions, for guaranteeing that personnel receiving 
this kind of assistance have been vetted on the human rights 
score. And we've worked out language with the Congress, the so-
called Leahy language, that we incorporate into these LOAs.
    And also that the personnel receiving training or 
participating in our programs have not been convicted of 
narcotics offenses.
    What are the consequences of not entering into LOAs? We 
suspended or stopped our program in Turkey last year when they 
wouldn't sign an LOA. We have not gone ahead in Vietnam with 
the program.
    Mr. Shays. Fair enough. So you would discontinue.
    I said I would ask Mr. Platts' question, what is the 
relationship between freedom of the media and access to tools 
like copiers and internet access and the rule of law? Was that 
his question, more or less? The whole concept--it's the one 
thing I left out when I gave you the list to choose from, and I 
should have put freedom of the press, because Lord knows, that 
makes a difference, too. It's kind of exciting to think of all 
the things that make our country work.
    And let me say this, if you could respond to the question 
as you remember Mr. Platts asking it, also use this as your 
opportunity to answer a question I didn't ask, and I want to be 
done in 4 minutes. We'll start with you, Mr. Rosenblum.
    Mr. Rosenblum. OK. I think the independent media, the 
question of the role of the media is critical to ensuring rule 
of law. It's a watchdog.
    Mr. Shays. That's part of this process when we talk about 
rule of law?
    Mr. Rosenblum. It's very much part of it. And when the GAO 
responded to the question, they noted that they hadn't looked 
at the programs that specifically deal with media. We do have a 
large part of our assistance portfolio that works on 
strengthening independent media. It does that in more general 
ways in terms of the viability, sustainability of media as a 
business and giving incentives to journalists to do certain 
kinds of investigative journalism.
    But it hasn't been as targeted as perhaps it could be 
specifically on the issues of corruption and rule of law. 
There's a few examples of that, I know there's a program in 
Ukraine and perhaps Viviann can mention, that does focus on 
anti-corruption at the local level and involves some aspect of 
media. But it is a critical component.
    Ms. Gary. AID, in this region, particularly, has probably 
the largest media program than we have anywhere else in the 
world. They are usually anywhere from maybe 10 to 20 percent of 
our democracy portfolios in any one of these countries, and it 
is as Dan was saying, basically building independent media, 
which we think is critically important.
    Mr. Shays. I would think they are the only ones who can 
basically call the question on the--I don't want to use your 
time. Bottom line is, the other parts that don't work need to 
be highlighted by an honest press.
    Ms. Gary. Right. One of the other things I'd like to 
mention as well is, in terms of effecting the rule of law, 
because it is fairly amorphous, other things that the GAO did 
not end up looking at is that we have a quite significant 
program with the legal association for development of NGO's. We 
also do a lot of work in rule of law for commercial in our 
commercial area. So throughout our portfolio we really do 
address issues of rule of law as well.
    Mr. Shays. Thank you.
    Ms. Swartz. Mr. Chairman, while media is not a central 
focus of the Department of Justice's rule of law training, we 
of course believe it is very important in helping to establish 
the kind of honesty that you refer to in regard to police, 
prosecutors and the judiciary.
    Mr. Shays. Is there anything either on media or any last 
point that you need to put on the record in literally 1 minute?
    Ms. Hicks. Yes, I would just add, because if I let the 
success question go by, I won't be allowed back in my 
department, having failed to mention a success. We have managed 
to create 53, working with other countries, financial 
intelligence units around the world. And this is the structure 
within a government to do the kind of financial analysis to 
support money laundering investigations.
    Of course, we have this thing to the point that the Justice 
Department does with Russia's failure to pass their money 
laundering law.
    Mr. Shays. The interaction between law enforcement agencies 
I think is absolutely critical. We've seen it in terms of how 
we deal with terrorists and our work on that issue.
    One last word. I have literally 4 minutes before the 
machine could close. Any last comment?
    Let me just say I appreciate your all being here. We 
probably could go on longer but I don't want to keep you here 
and wait if we just had 10 minutes after that. So we'll adjourn 
now.
    We may have a few questions we'll give you in writing, 
given that we are ending shorter than I'd like. Thank you all 
for being here, and I'm going to run off. This hearing is 
adjourned.
    [Whereupon, at 2 p.m., the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T9866.054

[GRAPHIC] [TIFF OMITTED] T9866.055

[GRAPHIC] [TIFF OMITTED] T9866.056

[GRAPHIC] [TIFF OMITTED] T9866.057

[GRAPHIC] [TIFF OMITTED] T9866.058

[GRAPHIC] [TIFF OMITTED] T9866.059

[GRAPHIC] [TIFF OMITTED] T9866.060

[GRAPHIC] [TIFF OMITTED] T9866.061

[GRAPHIC] [TIFF OMITTED] T9866.062

[GRAPHIC] [TIFF OMITTED] T9866.063

[GRAPHIC] [TIFF OMITTED] T9866.064

[GRAPHIC] [TIFF OMITTED] T9866.065

[GRAPHIC] [TIFF OMITTED] T9866.066

[GRAPHIC] [TIFF OMITTED] T9866.067

[GRAPHIC] [TIFF OMITTED] T9866.068

[GRAPHIC] [TIFF OMITTED] T9866.069

[GRAPHIC] [TIFF OMITTED] T9866.070

[GRAPHIC] [TIFF OMITTED] T9866.071

[GRAPHIC] [TIFF OMITTED] T9866.072

[GRAPHIC] [TIFF OMITTED] T9866.073

[GRAPHIC] [TIFF OMITTED] T9866.074

[GRAPHIC] [TIFF OMITTED] T9866.075

[GRAPHIC] [TIFF OMITTED] T9866.076

[GRAPHIC] [TIFF OMITTED] T9866.077

[GRAPHIC] [TIFF OMITTED] T9866.078

[GRAPHIC] [TIFF OMITTED] T9866.079

[GRAPHIC] [TIFF OMITTED] T9866.080

[GRAPHIC] [TIFF OMITTED] T9866.081

[GRAPHIC] [TIFF OMITTED] T9866.082

[GRAPHIC] [TIFF OMITTED] T9866.083

[GRAPHIC] [TIFF OMITTED] T9866.084

[GRAPHIC] [TIFF OMITTED] T9866.085

[GRAPHIC] [TIFF OMITTED] T9866.086

[GRAPHIC] [TIFF OMITTED] T9866.087

[GRAPHIC] [TIFF OMITTED] T9866.088

[GRAPHIC] [TIFF OMITTED] T9866.089

[GRAPHIC] [TIFF OMITTED] T9866.090

[GRAPHIC] [TIFF OMITTED] T9866.091

[GRAPHIC] [TIFF OMITTED] T9866.092

[GRAPHIC] [TIFF OMITTED] T9866.093

[GRAPHIC] [TIFF OMITTED] T9866.094

[GRAPHIC] [TIFF OMITTED] T9866.095

[GRAPHIC] [TIFF OMITTED] T9866.096

[GRAPHIC] [TIFF OMITTED] T9866.097

[GRAPHIC] [TIFF OMITTED] T9866.098

[GRAPHIC] [TIFF OMITTED] T9866.099

[GRAPHIC] [TIFF OMITTED] T9866.100

[GRAPHIC] [TIFF OMITTED] T9866.101

                                   - 

</pre></body></html>
